OFFICE OF INSPECTOR GENERAL


AUDIT OF APPLICATION
CONTROLS FOR
USAID/GLOBAL HEALTH
BUREAU’S FIELD SUPPORT-
AID SYSTEM
AUDIT REPORT NO. A-000-08-003-P
January 28, 2008




WASHINGTON, DC
Office of Inspector General


January 28, 2008

MEMORANDUM

TO:                  Senior Deputy Assistant Administrator, GH/AA, Gloria Steele

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:             Audit of Application Controls for USAID/Global Health Bureau’s Field Support-
                     AID System (Report No. A-000-08-003-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in Appendix II.

This report contains two recommendations. The first is to help USAID improve application controls
for its Field Support-AID system. The second recommendation addresses unneeded roles to
USAID’s core accounting system. Based on your response and the supporting documentation
that you provided with your comments, final action has been taken on both recommendations.

I appreciate the cooperation and courtesies extended to my staff during this audit.




cc: Controller GH/SPBO, Kristine Smathers




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Finding ................................................................................................................... 4

     USAID Did Not Have
     Formal Documented Access
     Approval to FS-AID ..................................................................................................... 4

Other Matters of Interest ................................................................................................7

     Field Support-AID System
     Administrator Has Unneeded
     Roles in Phoenix ......................................................................................................... 7

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
Information technology application controls are fully automated controls designed to
ensure complete and accurate processing of data. Application controls vary based on
the business purpose of the specific application and help ensure the privacy and security
of data transmitted between applications. (Page 2.) The Information Technology and
Special Audits Division of the Office of Inspector General conducted this audit to
determine if USAID had implemented application controls for its Field Support-AID
System to mitigate the risk of mismanaging appropriated funds. (Page 3.)

Overall, the audit determined that the application controls for the system were adequate,
except that USAID did not formally document the approvals needed to access the
system. For example, USAID implemented application controls that have certain edit
checks built into the system to help ensure that data is accurate. However, the lack of
proper approvals to access the system means that unauthorized users could gain
access to sensitive information, thus increasing the risk of unauthorized use, loss, or
modification of the information. (Pages 4-6.)

In addition, the audit found that the system administrator had unneeded roles in Phoenix
(the Agency’s core accounting system) 1 . Specifically, he had input capabilities to the
system when he needed only view capabilities to perform his job. As a result, he had the
ability to distribute and process funds for program and operating expenses, an ability
which was incompatible with his job functions. (Pages 7-8.)

This report contains two recommendations. The first recommendation is to help USAID
improve its application controls over the system (Page 6.) The second recommendation
addresses the unneeded access to USAID’s core accounting system. (Page 8.)

Based on USAID’s response and the supporting documentation provided, final action
has been taken on both recommendations. (Page 9.)




1
  This particular finding was not tied directly to our audit objective. However, during our fieldwork
the issue was discovered and we felt it significant enough to report.


                                                                                                   1
BACKGROUND
Information technology (IT) application controls are fully automated controls designed to
ensure the complete and accurate processing of data, from input through output. These
controls vary based on the business purpose of the specific application and help ensure
the privacy and security of data transmitted between applications. Categories of IT
application controls may include:

•       Completeness checks - Controls to ensure that all records were processed from
        initiation to completion.

•       Validity checks - Controls to ensure that only valid data are input or processed.

•       Authentication - Controls to ensure that only authorized programs can read the
        data.

Field support is the process by which USAID missions “buy in” to centrally awarded
contracts, cooperative agreements, and grants. For example, a mission may buy in to a
grant for a broad range of environmental issues as they apply to regional security,
stability, and conflict. This method can help meet the needs of USAID missions where
(1) indefinite delivery contracts are not available, (2) contract staffing is insufficient in the
field, or (3) a particular activity requires flexibility, and management of that activity more
appropriately lies with the central bureaus. In fiscal year 2006, USAID missions obligated
more than $400 million through field support agreements.

According to the system administrator, the field support process began in 1995, but the
system used for tracking field support activity has changed over time. The system began
with e-mail exchanges and spreadsheets, evolved to a basic database, and eventually to
the current Web-enabled database system, called Field Support-AID (FS-AID).

In 2005 USAID interfaced FS-AID with Phoenix, USAID’s core accounting system.
Although Phoenix tracks expenditures, it has no budgeting capabilities and does not
contain sublevel expenditure categories. Thus, USAID bureaus 2 use the system to track
budget activity for field support by inputting planning, receiving, obligating, and
commitments data into the system. In addition, USAID uses information in the system for
reports to Congress.




2
 A bureau is a major organization unit of USAID that reports to the Office of the Administrator. A
bureau administers complex and diverse programs involving a designated geographic area; major
policy, program and technical advisory services; or management and program support functions.


                                                                                                2
AUDIT OBJECTIVE
This audit was conducted to answer the following question:

       Did USAID implement application controls for its Field Support-AID
       system to mitigate the risk of mismanagement of appropriated funds?

A description of the audit’s scope and methodology is contained in Appendix I.




                                                                             3
AUDIT FINDING
USAID implemented application controls for its Field Support (FS)-AID system to
mitigate the risk of mismanaging appropriated funds, but USAID did not formally
document the approvals needed to access FS-AID.

Specifically, USAID implemented edit checks built to help ensure that data within the
system is accurate. The controls included the following (among other things):

•        Checks to ensure that the input field accepts the appropriate numeric format and
         the required number of characters. For example, for the “Commit/Amend” field,
         the system validates the amounts entered and field support requests selected.

•        Completeness checks that identify missing data fields. For example, FS-AID
         verifies that Strategic Objective values are not missing.

•        Error and warning messages to indicate the type of problem encountered. For
         example, when a commitment comes back from Phoenix as “Failed,” the system
         provides a screen where users can view the error messages returned. In
         addition, an event log records any error messages for processes that are not
         seen by the user. System administrators can check this log to troubleshoot any
         data errors and inconsistencies or unresponsiveness reported by users.

However, USAID did not formally document the approvals needed to access FS-AID.
The following section discusses this issue in detail.

USAID Did Not Have
Formal Documented
Access Approval to FS-AID

    Summary: USAID did not formally document approvals needed to access FS-AID,
    as required by National Institute of Standards and Technology Special Publication
    (NIST) 800-12. According to Agency personnel, the FS-AID policy and procedures
    manual, including the FS-AID Access Form, was never finalized. Because the FS-
    AID system did not have proper access approvals in place unauthorized users
    could gain access to the system and its sensitive information, thus increasing the
    risk of unauthorized use, loss, or modification of the information.

According to Section 10.2 of NIST 800-12, An Introduction to Computer Security:

        Effective administration of users' computer access is essential to
        maintaining system security. User account management focuses on
        identification, authentication, and access authorizations. This is
        augmented by the process of auditing and otherwise periodically verifying
        the legitimacy of current accounts and access authorizations.




                                                                                         4
According to NIST 800-12, authorization to access a system is granted, directly or
indirectly, by the application or system owner.

In addition, according to the U.S. Government Accountability Office’s (GAO) “Standards
for Internal Control in the Federal Government:”

       Access to resources and records should be limited to authorized
       individuals, and accountability for their custody and use should be
       assigned and maintained. Periodic comparison of resources with the
       recorded accountability should be made to help reduce the risk of errors,
       fraud, misuse, or unauthorized alteration.

According to the system administrator, access to the FS-AID requires a “Rule of Two.”
Two members of USAID management must request access, stating the reason why
access is needed and whether read or write access is appropriate. However, the system
administrator also stated that there is no formal access authorization form. Instead,
mission users are granted access to the system via e-mail requests. The system
administrator stated that he generally (but not always) keeps e-mails pertaining to
access by mission users. The system administrator does not require e-mail permission
from USAID management for Washington users. Rather, the system administrator grants
access after receiving verbal permission from either the individual requestor or the
individual’s supervisor.

Based on a random sample of 50 from a list of 596 users, 34 (68 percent) did not have
documented access rights. Specifically, of the 34 users, 15 could enter data into the
system and 19 had read only access.

According to the FS-AID system administrator, USAID management did not believe
formal documented access was needed because (1) FS-AID is not a financial system
and (2) the security set-up is a single sign-on application linked via USAID’s network.
However, although the aforementioned statement may be true, the FS-AID system
contains sensitive information and is linked to Phoenix. Therefore, proper access
approval procedures are needed in order to protect data within the system from
unauthorized users.

Nonetheless, according to the draft “Access Control, Incident Response, and Security
Risk Management Policies and Procedures” for FS-AID, to “obtain access to the FS-AID,
an individual shall complete the FS-AID Access Form contained in the attached Adobe
Acrobat File." However, USAID did not finalize and put that document into use.
According to the system administrator, the document was drafted to demonstrate to the
chief information security officer, Phoenix security team, and deputy chief financial
officer that FS-AID had effective security control measures in place so as to obtain their
approval for the interface between FS-AID and Phoenix to be activated. However,
USAID officials decided to approve activation without that document. As such, an
FS-AID Access Form was not prepared.

Because the FS-AID system did not have proper access authorization in place,
unauthorized users could gain access to the system and its sensitive information, thus
increasing the risk of unauthorized use, loss, or modification of the information. Although
no instances of unauthorized access were identified, the system administrator



                                                                                         5
determined that 9 of the 50 users (18 percent) in the sample no longer required access
to the system. Thus, we are making the following recommendation:

   Recommendation No. 1: We recommend that the Field Support-AID System
   Owner document the approval procedures that authorize access to the Field
   Support-AID system. At a minimum, these procedures should include the
   requirement for formal documentation of access rights, approvals, and periodic
   recertification.




                                                                                    6
OTHER MATTERS OF
INTEREST
Although this issue does not relate directly to the audit objective, it was identified during
audit fieldwork and needs to be brought to the attention of USAID management for
corrective action.

Field Support-AID System
Administrator Has Unneeded
Roles in Phoenix

    Summary: Contrary to NIST 800-53, USAID’s Field Support-AID system
    administrator has unneeded roles in Phoenix, USAID’s core accounting system.
    This problem occurred because the system administrator was given these roles
    during the Phoenix overseas deployment. These unnecessary roles gave him the
    ability to distribute and process funds for program and operating expenses, an
    ability which was incompatible with his job functions.

According to appendix F of NIST Publication Special Publication 800-53, Recommended
Security Controls for Federal Information Systems, the organization should establish
appropriate divisions of responsibility and separate duties as needed to eliminate
conflicts of interest in the responsibilities and duties of individuals.

The FS-AID system administrator is responsible for developing, implementing,
managing, and operating information systems for field support activity. In addition, he is
responsible for providing technical leadership for data management tasks. However,
based on a query of Phoenix, USAID’s core accounting system, the system
administrator has the ability to input information into Phoenix. Specifically, he was given
roles that allowed him to:

•       Distribute funds at the activity level for dollars appropriated for program and
        operating expense funds.

•       Process the funds for program and operating expense.

According to the system administrator, those roles in Phoenix are not required to
perform his job functions, which are to coordinate, facilitate, track and monitor
commitments. He affirmed that he needs only read-only access to help him perform his
duties.

According to the system administrator, he never used the aforementioned roles in
Phoenix, and viewed information only to help him manage and track field support
requests and commitments. Moreover, a query of Phoenix showed that the system
administrator never processed transactions in Phoenix.




                                                                                           7
According to Phoenix Security officials, the FS-AID system administrator was given
these additional roles in the event his assistance was needed to create mission budgets
at the activity level during the Phoenix overseas deployment.

As a result, the system administrator had the ability to distribute and process funds for
program and operating expenses, an ability which was incompatible with his job
functions. Upon being informed of this, the system administrator initiated a request that
those roles be removed. Nonetheless, we are making the following recommendation:

   Recommendation No. 2: We recommend that the Controller in the Global Health
   Bureau’s Office of Strategic Planning, Budget & Operations review the Field
   Support-AID system administrator’s roles in Phoenix to determine which roles are
   needed for his current job functions and, based on the results of that review,
   make needed requests to the Phoenix Security team to modify those roles.




                                                                                       8
EVALUATION OF
MANAGEMENT COMMENTS
USAID management concurred with Recommendations No. 1 and No. 2. Based on the
response and supporting documentation provided, final action was taken on
Recommendation No. 1 and Recommendation No. 2 upon issuance of this report.

For Recommendation No. 1, we recommended that the Field Support-AID System
Owner document the approval procedures needed to access the Field Support-AID
system. At a minimum, these procedures should require formal documentation of
access rights, approvals, and periodic recertification. In response, the Field Support-
AID System Administrator Guide has been updated to require that (1) approval for
access to the database be documented and (2) an annual review of all user accounts
be conducted.

For Recommendation No. 2, we recommended that the controller in the Global Health
Bureau’s Office of Strategic Planning, Budget & Operations review the Field Support-AID
system administrator’s roles in Phoenix to determine which roles are needed for his
current job functions and, based on the results of that review, make needed requests to
the Phoenix Security team, to modify those roles. In response, the Bureau for Global
Health and the Phoenix Security Team revised the Field Support-AID system
administrator’s roles accordingly, and limited his access to the system for only those
roles necessary to carry out his job functions.

The complete text of USAID’s management comments (excluding the attachment) is
included in appendix II.




                                                                                          9
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG), Information Technology and Special Audits
Division, performed this audit in accordance with generally accepted government
auditing standards. The purpose of this audit was to determine whether USAID
implemented proper application controls for the Field Support-AID system to mitigate the
risk of the mismanagement of appropriated funds. The reviews of application controls for
this audit were limited to the following points:

   •   Data accuracy

   •   Completeness checks

   •   Validity checks of data

   •   Verifiability of data

Audit fieldwork was conducted at USAID headquarters in Washington, D.C, between
May 17 and October 10, 2007.

Methodology
To answer the audit objective, we obtained and reviewed FS-AID documentation and
conducted interviews with the FS-AID team. Specifically, we performed the following
actions (among others):

   •   Assessed a sample of application controls against the National Institute of
       Standards and Technology Special Publications, U.S. Government Accountability
       Office’s “Standards for Internal Control in the Federal Government,” and the FS-
       AID System Design Document.

   •   Reviewed the overall process of the FS-AID application itself.

   •   Reviewed a random sample of users to determine if user access had been
       authorized. However, we performed only limited work to determine whether user
       privileges on the system were consistent with the documented user
       authorizations.

   •   Followed up on other OIG audit reports that addressed FS-AID and its controls, as
       appropriate.

We did not evaluate the field support process or assess the accuracy of the field support
requests and commitments, nor did we not set a materiality threshold for this audit.




                                                                                      10
                                                              APPENDIX II



MANAGEMENT COMMENTS



TO:          Director IG/A/ITSA, Melinda G. Dempsey

FROM:        GH/SPBO Controller, Kris Smathers /s/

SUBJECT: Bureau for Global Health’s Response to the OIG’s Draft
Report Titled “Audit of Application Controls for USAID/Global Health
Bureau’s Field Support AID System” (A-000-08-00X-P)

Thank you for the opportunity to respond to the Office of Inspector
General’s (OIG) Draft Report Titled “Audit of Application Controls for
USAID/Global Health Bureau’s Field Support AID System” (A-000-08-
00X-P). The Bureau for Global Health (GH) has taken the following actions
outlined below and is, therefore, requesting that the two recommendations
be closed upon issuance of the OIG’s final audit report.

Recommendation No. 1: We recommend that the Field Support-AID System
Owner document the approval procedures for access authorization to the
Field Support-AID system. At a minimum, these procedures should include
the requirement for formal documentation of access rights, approval, and
periodic re-certification.

GH concurs with the recommendation. The Field Support-AID System
Administrator Guide has been updated to require (1) documented access
approval for the database and (2) an annual review of all user accounts.
Further, GH has designed and instituted an enhanced integrated electronic
and paper record keeping system that will track and maintain supporting
database access approval documentation for all new and re-certified user
accounts. (Please see pages 4-1 and 4-10 in the attached revised FS-AID
System Administrator Guide.)



                                                                       11
On this basis, GH requests that the recommendation be closed upon issuance
of the final audit report.

Recommendation No. 2: We recommend that the Controller of Operations
in the Global Health Bureau’s Office of Strategic Planning, Budget &
Operations review the Field Support-AID system administrator’s roles in
Phoenix to determine which roles are needed for his current job functions
and, based on that review, make needed requests to the Phoenix Security
team for modifications of those roles.

GH concurs with the recommendation. The Bureau for Global Health has
completed a review of the Field Support-AID system administrator’s roles in
Phoenix and determined that his current job functions require only the ability
to make inquiries. In accordance with this review, the attached request was
submitted to the Phoenix Security Team to revise the Field Support-AID
system administrator’s roles accordingly and the Phoenix Security Team has
completed this modification in Phoenix.

On this basis, GH requests that the recommendation be closed upon issuance
of the final audit report.

GH would like to thank the OIG staff for their thoughtful insights during the
audit that we believe have resulted in improved controls for the Field
Support AID System.




                                                                           12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
